HHS/OIG-Audit--"Medicare Contractor's Pension Segmentation Arkansas Blue Cross and Blue Shield, (A-07-98-02524)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Contractor's Pension Segmentation Arkansas Blue Cross and Blue
Shield," (A-07-98-02524)
September 3, 1998
Complete Text of Report is available in PDF format
(885 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Medicare Contractor's
Pension Segmentation, Arkansas Blue Cross and Blue Shield. Our review showed
that Arkansas overstated Medicare segment assets as of January 1, 1996 by $2,017,336.
This overstatement occurred primarily because Arkansas assigned Medicare segment
contributions incorrectly and mis-identified participants as to Medicare and
non-Medicare in calculations for Medicare benefit payments and transfers. We
recommend that Arkansas decrease the January 1, 1996 assets of the Medicare
segment by $2,017,336. Arkansas concurred with our findings and recommendation.